STATE OF SOUTH DAKOTA
COUNTY OF LAWRENCE

)
:
)

STATE OF SOUTH DAKOTA,
Plaintiff,
VS.
BRILEY W. PIPER
Defendant.

IN CIRCUIT COURT
FOURTH JUDICIAL CIRCUIT
)
)
)
)
)
)
)

00-431
JUDGMENT OF CONVICTION
(FIRST DEGREE FELONY MURDER)

An Amended Indictment was filed with this Court on the 7th day of
September, 2000. The Defendant was arraigned on the Amended Indictment on the
26th day of September, 2000. The Court advised the Defendant of all constitutional
and statutory rights pertaining to the charge that had been filed against the
Defendant, including but not limited to the right to a jury trial. The Defendant pled
not guilty to the charges.
On the 3rd day of January, 2001, the Defendant, the Defendant’s attorneys,
Tim Rensch and Patrick Duffy, and John H. Fitzgerald as prosecuting attorney
appeared at the Defendant’s change of plea hearing. The Defendant pled guilty to
the charge of IA: First Degree Murder – Felony Murder (Class A Felony) (SDCL 2216-4 and 22-3-3), Count IIA: Kidnapping (Class 1 Felony) (SDCL 22-19-1 and 22-33), Count III: Robbery – First Degree (Class 2 Felony) (SDCL 22-30-1, 2, 3, & 6 and
22-3-3), Count IV: First Degree Burglary (Class 2 Felony) (SDCL 22-32-1(3) and 223-3), Count V: Grand Theft (Class 4 Felony) (SDCL 22-30A-1 and 22-30A-17(1) and
22-3-3).
On January 19, 2001 following a pre-sentencing hearing conducted before the

Page 2
Judgment of Conviction
Honorable Warren G. Johnson, the Defendant was sentenced to death on the First
Degree Murder Charge. On Count IIA: Kidnapping, the Defendant shall serve life
imprisonment without parole. On Count III: Robbery First Degree, the Defendant
shall serve twenty-five (25) years in the South Dakota State Penitentiary. On
Count IV: First Degree Burglary, the Defendant shall serve twenty-five (25) years
in the South Dakota State Penitentiary. On Count V: Grand Theft, the Defendant
shall serve ten (10) years in the South Dakota State Penitentiary. These sentences
run consecutively.
In Piper vs. Weber, 2009 S.D. 66, the South Dakota Supreme Court vacated
the sentence of death on the First Degree Murder charge and remanded the matter
to the Circuit Court for a Jury conducted pre-sentence hearing. By the order of the
Court, Circuit Court Judge, Jerome A. Eckrich was assigned to the proceedings.
On July 18, 2011 through July 29, 2011 the Court conducted a pre-sentence
hearing before a Pennington County Jury. The matter was heard in Pennington
County pursuant to the Court’s Order changing venue in this matter. The
Defendant was personally present and represented by his attorneys, Robert
VanNorman and Michael Stonefield of Rapid City, South Dakota and Lawrence
County State’s Attorney, John H. Fitzgerald appeared on behalf of the State of
South Dakota.

Page 3
Judgment of Conviction
On July 29, 2011 the Jury unanimously found the existence of aggravating
circumstances as set forth in SDCL 23A-27A-1 subsection (3), (6) and (9) and
unanimously imposed a sentence of death in this matter.
Now in accordance with that Jury’s recommended verdict, the Court imposes
the following:
SENTENCE
On the 5th day of August, 2011, the Court asked the Defendant if any legal
cause existed to show why Judgment should not be pronounced. There being no
cause offered, the Court thereupon pronounced the following sentence:
COUNT IA: FIRST DEGREE MURDER – FELONY MURDER
IT IS HEREBY ORDERED that the Defendant shall be sentenced to death,
said penalty to be inflicted within the walls of the South Dakota State Penitentiary
in the manner prescribed by the statutes of the State of South Dakota; and
IT IS FURTHER ORDERED that the week of March 18, 2012 be and the
same is hereby appointed as the week within which this death sentence shall be
executed; and
IT IS FURTHER ORDERED that the Defendant, Briley W. Piper, is hereby
remanded to the custody and control of the Sheriff of Lawrence County, South
Dakota to be delivered fto the Warden of the South Dakota State Penitentiary at
Sioux Falls, South Dakota within ten (10) days from the date hereof for the
execution of the sentence for the offenses of First Degree Murder – Felony Murder,
to be held by him pending the final determination of the appeals in this matter,
which are automatic, and said sentence to be executed upon final determination of
said appeals.
IT IS FURTHER ORDERED that the sentences previously imposed on all
other counts shall remain in full force and affect.
Dated this 9 day of August, 2011.

Page 3
Judgment of Conviction
BY THE COURT:

/s/ Jerome A. Eckrich________
Hon. Herome A. Eckrich
Circuit Court Judge
ATTEST:

/s/ Carol Latuseck____
Clerk of Courts
BY: /s/ Lane Kiel_____
Deputy
FILED
AUG – 9 2011
SOUTH DAKOTA UNIFIED JUDICAL SYSTEM
4TH CIRCUIT CLERK OF COURT
By ____________________________________________

